                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     ,OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 110030010                                                                      Page 1 of 1



          OIG received an allegation that an employee 1 (the subject) of a Universitl who had worked on
          an NSF grant,3 quit, but continued to receive NSF-funded salary. After we contacted the
          University to request grant-related documents, the University conducted its own internal .
          investigation. Ultimately, the University determined that the subject had been paid for five
          months after she quit, that two other employees4 erroneously charged time to the grant, and that
          a third employeeS created false time and effort reports (T &E) to support the fraudulently
          claimed time. We agreed with the University's conclusions.

          The University returned the improperly charged salary and associated indirect costs to NSF,6 and
          took administrative actions, including the termination of the employee who created the false
          T&E reports. Finally; the University identified and addressed the internal control issues that had
          lead to the false charges through a corrective action plan to help ensure future compliance with
          federal awards and decrease the likelihood that similar wrongdoing will occur.

          Because NSF has been made whole and the University has addressed the administrative issues
          that caused the wrongdoing, this investigation is closed and no further action will be taken.




          '2
          3
          4
          5
          6




NSF OIG F0fl!12 (11102)
